APPENDIX TABLE OF CONTENTS
Opinion of the Court of Appeals for the Third
Circuit (March 22, 2019) .................................... 1a
Opinion of the District Court of New Jersey
(November 30, 2017) ........................................ 12a
Order of the District Court of New Jersey
(November 30, 2017) ........................................ 38a
Statutory Provisions ............................................... 40a

App.1a
OPINION OF THE COURT OF APPEALS
FOR THE THIRD CIRCUIT
(MARCH 22, 2019)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
MICHAEL SIMONS,

Appellant,
v.
BOSTON SCIENTIFIC; GARY LICKOVITCH;
SAMUEL CONAWAY; JOHN DOES 1-30,

Appellee.

________________________
No. 17-3824

On Appeal from the United States
District Court for the District of New Jersey
(District Court No. 2-15-cv-07519)
District Judge: Honorable Madeline C. Arleo
Submitted under Third Circuit LAR 34.1(a)
On November 9, 2018
Before: AMBRO, SCIRICA and RENDELL,
Circuit Judges.

 This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

App.2a
RENDELL, Circuit Judge:
Boston Scientific Company (“BSC”) terminated
Michael Simons citing a pattern of unprofessional behavior and poor judgment observed by his supervisors,
Gary Lickovitch and Samuel Conaway. Simons sued
BSC, Lickovitch, and Conaway (“Defendants”) in state
court alleging violations of the New Jersey Law
Against Discrimination (“LAD”), the Family Medical
Leave Act (“FMLA”), and the New Jersey Conscientious Employment Protection Act (“CEPA”). Defendants
removed the case to the United States District Court
for the District of New Jersey, where the District
Court granted Defendants’ motion for summary judgment and dismissed the case. Because we agree with
the District Court that, even when drawing all facts
and inferences in favor of Simons, Defendants are
entitled to summary judgment, we will affirm.
FACTUAL BACKGROUND
BSC hired Simons in 2000 and promoted him to
Regional Manager in 2009, a position he held until he
was terminated in 2015. Beginning in 2011, alcohol
consumption affected Simons’ work performance. In
2013, while Conaway was the supervisor to Simons,
Conaway observed Simons at business dinners visibly
drunk, slurring his speech, and displaying an inability
to maintain a conversation. Based on this and other
inappropriate conduct, Conaway issued a Written
Corrective Action (“WCA”) to Simons, detailing these
events, and informing Simons that BSC expects “that
[Simons] immediately exhibit professional behavior
and good judgment.” App. 326.
After the WCA, Simons attended a strategy meeting for regional managers, where he consumed alcohol

App.3a
during breaks and appeared visibly intoxicated at
dinner. After that strategy meeting, Conaway issued
a Final Corrective Action (“FCA”), which stated that
Simons should not “drink during any future BSC
meetings” and that “modifying [his] behavior is critical
for [his] continued employment with BSC.” App. 334.
Shortly after, Simons emailed Lickovitch, supervisor
to Simons, citing numerous complaints by his team of
Lickovitch’s conduct, including making a female subordinate uncomfortable by asking her to “[s]tay at the
W hotel in NYC” and “dragging [a male subordinate]
around to meet girls.” App. 347. The email stated,
“[t]his e mail [sic] will stay in my files and I would
fully expect you and I will continue a strong working
relationship.” Id. Lickovitch forwarded the email to
Human Resources Director Michelle DeCoux. Lynn
Prust, Employee Relations Manager at BSC, investigated the alleged conduct, and concluded Lickovitch
had not violated BSC’s policies.
After the FCA, Simons attended a national sales
meeting. During that meeting, there were reports that
he hugged and kissed a senior vice president and
engaged in inappropriate conduct with a subordinate.
This conduct became the subject of an investigation by
Prust. Prust later expanded her investigation to
include a February 27th conference call where multiple members reported Simons slurred his words and
provided incoherent thoughts, suggesting that he was
intoxicated. On March 12, 2015, Simons was arrested
for driving under the influence of alcohol in a school
zone. The next day, Simons emailed Lickovitch requesting FMLA leave to address his alcoholism. Simons did
not notify Lickovitch or BSC of the arrest, and BSC

App.4a
approved his medical leave. During the 30-day medical leave, Prust continued her investigation, which
included an interview with Simons. During the interview, Simons indicated that he communicated with
the Division President, Kevin Ballinger, about concerns he had regarding Conaway and Lickovitch.
Prust followed up with Ballinger, who said he did not
speak with Simons, nor had he ever discussed Simons’
problems. Prust concluded her investigation, finding
that Simons was under the influence on the February
27th Strategy call and that he lied about discussing
Lickovitch’s conduct with Ballinger.
DeCoux scheduled a meeting with Simons after
his return from FMLA leave to discuss subsequent
disciplinary action. In anticipation of that meeting,
DeCoux hired a private security team that uncovered
the March 12th DUI and informed her of the arrest.
Lickovitch, Conaway, Prust, DeCoux, and in-house
counsel held a conference call to discuss Prust’s investigation, the March 12th DUI, and subsequent disciplinary action. The parties isolated five reasons for
Simons’ termination: (1) violating the WCA; (2) violating
the FCA, including his promise to not drink at future
meetings; (3) participating in the February 27th call
while intoxicated; (4) being arrested (during work
hours) and failing to disclose the DUI; and (5) falsely
claiming that he spoke with Ballinger. Based on all
the above information, BSC terminated Simons’ employment.
DISTRICT COURT OPINION
Simons sued BSC, Lickovitch and Conaway in
state court alleging violations of the LAD, FMLA and
CEPA. Defendants removed the case to the United

App.5a
States District Court for the District of New Jersey.
After discovery, Defendants moved for summary judgment.
The District Court granted Defendants’ motion
for summary judgment, dismissing Simons’ claims
under the LAD, FMLA, and CEPA. As for the LAD
claim, the District Court found that BSC identified
legitimate, non-discriminatory reasons for terminating
Simons’ employment, namely, ample evidence of misconduct, poor business judgment, and violations of the
company’s policies. Simons failed to meet his burden
that BSC’s proffered reasons were merely a pretext for
discrimination. Because he failed to establish the
underlying claim, his claim that Conaway and Lickovitch
aided and abetted violations of LAD also failed. As for
the FMLA claim, the temporal proximity between
Simons’ decision to take leave and his subsequent
termination was insufficient, as a matter of law, to
establish a causal connection between his request for
leave and his termination, especially in light of the
evidence of misconduct prior to requesting FMLA
leave and the failure to disclose the DUI. And as for
the CEPA claim, Simons failed to point to any facts
that amounted to whistleblowing, or that would
demonstrate a causal connection between his whistleblowing and subsequent termination.
The District Court granted summary judgment
for the Defendants, which Simons appealed and we
now review.
ANALYSIS
Our review of a district court’s grant of summary
judgment is plenary. Atkinson v. Lafayette College,
460 F.3d 447, 451 (3d Cir. 2006). Summary judgment

App.6a
shall be granted “if the movant shows that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). We “(i) resolve conflicting evidence
in favor of the nonmovant, (ii) do not engage in credibility determinations, and (iii) draw all reasonable
inferences in favor of the nonmovant.” Simpson v. Kay
Jewelers, Div. of Sterling, Inc., 142 F.3d 639, 643 n.3
(3d Cir. 1998) (quoting Fuentes v. Perskie, 32 F.3d
759, 762 n.1 (3d Cir. 1994)).
1.

Simons Failed to Meet His Burden under the LAD
to Show BSC’s Legitimate, Non-Discriminatory
Reasons for Firing Him Were Merely a Pretext for
Discrimination

To state a prima facie case of unlawful discrimination under LAD, a plaintiff must show that he or
she: (1) belongs to a protected class; (2) held a position
for which he or she was objectively qualified; (3) was
terminated from that position; and (4) the employer
sought to, or did, fill the position with a similarly
qualified person. See Viscik v. Fowler Equipment Co.,
800 A.2d 826, 833 (N.J. 2002). Once a plaintiff establishes a prima facie case, the burden of production
shifts to the defendant “to articulate a legitimate, nondiscriminatory reason for the adverse employment
action.” Id. “The employer need not prove that the
tendered reason actually motivated its behavior, as
throughout this burden-shifting paradigm the ultimate burden of proving intentional discrimination
always rests with the plaintiff.” Fuentes, 32 F.3d at
763 (emphasis in original). If the employer can establish a legitimate, non-discriminatory reason for terminating the plaintiff, then the burden shifts back to
the plaintiff to establish that the “proffered reason [is]

App.7a
merely a pretext for discrimination.” Viscik, 800 A.2d
at 833. “[A] plaintiff who has made out a prima facie
case may defeat a motion for summary judgment by
either (i) discrediting the proffered reasons, either
circumstantially or directly, or (ii) adducing evidence,
whether circumstantial or direct, that discrimination
was more likely than not a motivating or determinative cause of the adverse employment action.”
Fuentes, 32 F.3d at 764 (emphasis in original). This
series of shifting burdens is known as the McDonnell
Douglas framework. See McDonnell Douglas Corp. v.
Green, 411 U.S. 792, 802 (1973).
Although Simons can establish a prima facie case
for discrimination, his LAD claim fails because no
reasonable factfinder could conclude that BSC’s legitimate nondiscriminatory reasons were merely a pretext for discrimination. BSC has provided legitimate,
non-discriminatory reasons for terminating Simons,
namely, two written corrective actions concerning
alcohol-related conduct, a subsequent DUI arrest,
inappropriate conduct on the February 27th conference call, and lying to Prust about speaking to
Ballinger. Simons disputes the factual basis of each of
these reasons, alleging that “defendant’s reasons are
. . . post h[o]c fabrications[.]” App. Br. at 34. But “the
mere existence of some alleged factual dispute between
the parties will not defeat an otherwise properly supported motion for summary judgment; the requirement is that there be no genuine issue of material
fact.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
247-48 (1986) (emphasis in original).
Simons’ assertions do not amount to genuine
issues of material fact. Simons argues that the WCA
and FCA could not possibly serve as the basis for

App.8a
termination because they “expired.” But they still
indicate a pattern of misconduct that formed the basis
of the termination decision. Simons also argues that
the District Court ignored testimony indicating he
was not intoxicated at the time of the February 27th
call, although the testimony cited by Simons mentions
that he slurred his words, App. 985, 992, and “start[ed]
happy hour early,” App. 992. Finally, Simons argues
that he did not lie to Prust during the interview
because he did in fact speak with Ballinger. But this
attempts to create a factual dispute unattached to the
law: even if Simons spoke with Ballinger, he fails to
show that Prust’s conclusion that he falsely claimed
he spoke to Ballinger was merely a pretext for discrimination.
Because Simons failed to raise genuine issues of
material fact, and the Defendants had legitimate, nondiscriminatory reasons for terminating Simons’ employment that were not merely pretexts for discrimination, we agree with the District Court that Defendants are entitled to summary judgment on the LAD
claim.1
2.

Simons Failed to Meet His Burden under the
FMLA Because He Cannot Establish a Causal
Connection between His Request for Leave and
the Decision to Terminate His Employment

To state a claim under the FMLA, a plaintiff must
establish that (1) he engaged in protected activity by
requesting FMLA leave; (2) he suffered an adverse
1 Since the underlying claim is dismissed, we will also affirm the
District Court’s order dismissing the claim that Lickovitch and
Conaway aided and abetted the violation of LAD.

App.9a
decision, such as termination; and (3) the adverse
decision was causally related to his request for leave.
See Capps v. Mondelez Global, LLC, 847 F.3d 144, 152
n.6 (3d Cir. 2017). Like the LAD claim, we apply the
McDonnell Douglas framework to FMLA claims. The
dispute here concerns the causal requirement: to
establish a causal relationship, plaintiff must show
“either (1) an unusually suggestive temporal proximity
between the protected activity and the allegedly
retaliatory action, or (2) a pattern of antagonism
coupled with timing to establish a causal link.”
Budhun v. Reading Hosp. & Med. Ctr., 765 F.3d 245,
258 (3d Cir. 2014) (quoting Lauren W. ex rel. Jean W.
v. DeFlaminis, 480 F.3d 259, 267 (3d Cir. 2007)). But
“[a]n employee cannot easily establish a causal connection between his protected activity and the alleged
retaliation when he has received significant negative
evaluations before engaging in the protected activity.”
Ross v. Gilhuly, 755 F.3d 185, 194 (3d Cir. 2014).
Here, even though there is a short period of time
between the request for leave, returning from leave,
and the termination, no reasonable factfinder could
conclude in the face of the events leading up to the
request for leave—namely, two prior written corrective actions, an undisclosed DUI arrest,2 and an
investigation which concluded that Simons was intoxicated during a conference call—that there is a causal
relationship between Simons’ request for leave and
2 Simons contends that the decision to terminate him was made
prior to the disclosure of the DUI. While there is ample evidence
on the record suggesting that this is not true, even so, the other
past misconduct, standing on its own establishes that there is no
causal connection between the request for leave and decision to
terminate.

App.10a
the decision to terminate him. See, e.g., Ross, 755 F.3d
at 194 (finding that a retaliatory inference was
defeated by the request for performance improvement
prior to knowledge that plaintiff was sick and requesting
leave). Therefore, we agree with the District Court
that Defendants are entitled to summary judgment on
the FMLA claim.
3.

Simons Failed to Meet His Burden under the
CEPA Because He Cannot Establish a Connection
between His Purported Whistleblowing and the
Termination Decision

To state a prima facie case of retaliation under
the CEPA, a plaintiff must show: (1) he reasonably
believed the conduct he reported violated a law, rule,
regulation, or clear mandate of public policy; (2) he
performed a “whistleblowing activity” described in
N.J.S.A. § 34:19-3; (3) an adverse employment action
was taken against him; and (4) a causal connection exists between the whistleblowing activity and the
adverse employment action. Winters v. North Hudson
Regional Fire and Rescue, 50 A.3d 649, 662 (N.J.
2012). We apply the McDonnell Douglas framework to
CEPA claims.
Here Simons argues that his email to Lickovitch
documenting two incidents involving Lickovitch and
members of Simons’ team constituted “whistleblowing.”
He further argues that BSC terminated his employment because of this alleged whistleblowing activity.
The District Court correctly determined that no reasonable factfinder could conclude that Simons engaged
in whistleblowing activity, or that the activity was
causally related to his termination. Simons’ statement
that “[t]his e mail [sic] will stay in my files and I would

App.11a
fully expect you and I will continue a strong working
relationship,” App. 347, evidences neither an intent to
disclose nor object to Lickovitch’s conduct. Rather, it
shows an intent to keep it private. Even if this constituted “whistleblowing,” for the same reason Simons’
LAD claim failed, the CEPA claim fails: there is no
causal connection between his purported “whistleblowing” and his termination. BSC terminated Simons
because of the two written corrective actions concerning alcohol-related conduct, a subsequent DUI arrest,
inappropriate conduct on the February 27th conference call, and lying to Prust during the investigation about speaking to Ballinger. Even viewing the
evidence in a light most favorable to Simons, no reasonable factfinder could conclude that Simons has
stated a CEPA claim.
CONCLUSION
For the above reasons, we will affirm the District
Court’s order granting summary judgment.

App.12a
OPINION OF THE
DISTRICT COURT OF NEW JERSEY
(NOVEMBER 30, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MICHAEL SIMONS,

Plaintiff,
v.
BOSTON SCIENTIFIC, ET AL.,

Defendants.

________________________
Civil Action No. 15-7519

Before: Hon. Madeline COX ARLEO,
United States District Judge.
ARLEO, United States District Judge
THIS MATTER comes before the Court on Defendants Boston Scientific Corporation (“Boston Scientific”),
Gary Lickovitch (“Lickovitch”), and Samuel Conaway’s
(“Conaway”) (together, “Defendants”) motion for summary judgment. ECF No. 48. For the reasons set forth
below, Defendants’ motion is GRANTED.
I.

Background

This case arises from the termination of Plaintiff
Michael Simons’ (“Simons” or “Plaintiff”) employment

App.13a
by his former employer, Boston Scientific. Boston
Scientific terminated Plaintiff’s employment on April
20, 2017 as a result of Plaintiff’s pattern of unprofessional behavior and poor judgment. Plaintiff brings
this action under the New Jersey Law Against Discrimination (“NJLAD”), N.J.S.A. § 10:5-1 et seq., the
Family Medical Leave Act (“FMLA”), 29 U.S.C. § 2601
et seq., and the New Jersey Conscientious Employee
Protection Act (“CEPA”), N.J.S.A. § 34:19-1 et seq., to
challenge his termination.
A. Plaintiff’s Employment as Regional Manager
Plaintiff began working for Boston Scientific, a
medical device company, in February 2000 and served
as a Regional Manager from January 2009 until his
termination on April 20, 2015. Def. R.56 Stmt. ¶ 5,
ECF No. 48-2. Plaintiff was generally a high-performing Regional Manager and received several awards
from Boston Scientific for his sales performance. Id.
¶ 27. However, beginning in approximately 2011, Plaintiff began exhibiting a pattern of excessive drinking
that ultimately interfered with his work performance.
See, e.g., id. ¶ 28-29, 33, 36, 45-50, 54, 64-65, 84-87,
90-92, 94-96, 115-17.
B. Plaintiff’s Unprofessional Behavior Due to Alcohol Consumption
In approximately 2011, Plaintiff participated in a
multi-day leadership conference at Boston Scientific’s
headquarters in Boston and failed to appear for a day
of the conference. Id. ¶ 28. Boston Scientific personnel
asked hotel staff to check Plaintiff’s room, where he
was found “passed out” with open liquor bottles. Id.;
id., Ex. 51, ECF No. 48-61, 10/26/16 DeCoux Dep.

App.14a
Tr. 104:4-6. Plaintiff’s supervisor instructed Plaintiff
to leave the conference and return home. Def. R.56
Stmt. ¶ 28. Another time, also in approximately 2011,
Plaintiff attended a meeting led by his supervisor in
Maple Grove, Minnesota at which he drank multiple
alcoholic drinks, slurred his words, and made off-topic
comments to the extent that Plaintiff’s Human Resources
(“HR”) manager, Michelle DeCoux, asked the waitress
to stop serving Plaintiff alcohol. Id. ¶ 29.
Sometime after that, in approximately 2011 or
2012, Plaintiff spoke with DeCoux about taking a
leave from Boston Scientific to seek inpatient treatment for alcohol dependency. Id. ¶ 30. Subsequently,
Plaintiff checked into an inpatient treatment facility
in Minnesota but did not complete the program; he
stayed there for approximately 10 days. Id. ¶ 31.
Plaintiff suffered no adverse employment consequences
as a result of this leave. Id.
Plaintiff’s alcohol use continued to interfere with
his job performance. In 2013, Defendant Conaway
began supervising Plaintiff and, while Conaway commended Plaintiff on his strong sales performance,
Conaway observed multiple instances of poor judgment and inappropriate behavior by Plaintiff brought
on by alcohol use. Id. ¶ 35. Conaway observed that
during an October 30, 2013 business dinner, Plaintiff
had several drinks, was unable to follow the conversation, and had unprompted outbursts of laughter. Id.
¶ 36. Conaway observed that during a December 18,
2013 business dinner, Plaintiff slurred his speech,
repeated comments several times, and made comments related to consuming alcohol. Id. Conaway
observed that Plaintiff brought his girlfriend to a
December 29, 2013 national sales meeting, to which

App.15a
significant others were not invited, and at which
Plaintiff engaged in unprofessional conduct including
allowing his girlfriend to sit “on [Plaintiff’s] lap.” Id.;
id., Ex. 51, 10/26/16 DeCoux Dep. Tr. 108:2-10. Conaway also observed that Plaintiff seemed disengaged
and exhibited an inconsistent thought process during
a February 5, 2014 business call. Def. R.56 Stmt. ¶ 36.
Based on these four incidents, Conaway issued
Plaintiff a Written Corrective Action on February 14,
2014 which directed Plaintiff to “immediately exhibit
professional behavior and good judgment” and which
warned that failure to do so could result in termination. Id. ¶ 36; id., Ex. 9, ECF No. 48-19. Soon after
issuing the Written Corrective Action, Conaway
completed an evaluation of Plaintiff’s 2013 performance in which he referenced Plaintiff’s poor judgment,
cautioned that “any future lapse in good judgment could
lead to termination,” and emphasized that “[c]orrecting
your leadership judgment is critical for you to remain
in your current role.” Id. ¶ 43; id., Ex. 8, ECF No. 48-4.
Four months later, Plaintiff further engaged in
inappropriate behavior on the job while under the
influence of alcohol. From June 2-4, 2014, Plaintiff
attended a strategy meeting for regional managers
and Boston Scientific leadership during which plaintiff consumed alcohol. Def. R.56 Stmt. ¶ 46. Plaintiff
was reportedly disengaged during the meeting and
failed to complete his assignments. Id. Plaintiff was
observed slurring his words and exhibiting difficulty
focusing on the matters being discussed. Id. Plaintiff’s
inebriation was further observed during the dinner
after the meeting. While the group walked to dinner,
“Plaintiff grabbed a basketball from some children
and brought it with him down the street.” Id. ¶ 47. A

App.16a
colleague “had to wrest the ball from Plaintiff and
return it to the children.” Id. Plaintiff continued to
slur his speech, laugh excessively, and make inappropriate comments. Id. During the dinner, Plaintiff continued to drink alcohol and became increasingly
incoherent. Id. ¶ 48. Over a period of approximately
half an hour, Plaintiff and another Boston Scientific
employee ordered eight shots on a colleague’s bar tab.
Id. ¶ 50. At one point, “Plaintiff sat down at the wrong
table and began eating food someone else had ordered.”
Id. ¶ 48.
The following morning, Plaintiff met with his
supervisor, Conaway, who warned Plaintiff not to drink
at any future Boston Scientific meeting, and Plaintiff
promised he would not. Id. ¶ 53.
Fewer than ten days later, on June 13, 2014,
Plaintiff received a Final Corrective Action which
referenced the events of the June 2-4, 2014 meeting.
Id. ¶ 54. The Final Corrective Action reiterated Plaintiff’s commitment “not to drink during any future BSC
meetings” and to “behave professionally at all times,”
and it cautioned Plaintiff that “modifying [his] behavior
[was] critical for [his] continued employment with
BSC.” Id.; id., Ex. 11, ECF No. 48-21. The Final Corrective Action included an “anticipated review date” of
July 31, 2014 with “[p]eriodic reviews thereafter through
June 2015.” Def. R.56 Stmt. ¶ 55. The Final Corrective
Action provided Plaintiff with information about Boston
Scientific’s Employee Assistance Program. Id. ¶ 56.
Plaintiff responded to the Final Corrective Action
by updating his resume, which he acknowledged in his
deposition was “prudent” because “[t]wo corrective
actions is concerning.” Id. ¶ 57. In November 2014,
Plaintiff sent his resume to a manager at another

App.17a
medical device company and acknowledged in an
email to his girlfriend regarding a work event they
were both planning to attend that they would refrain
from alcohol so as to “redeem ourselves.” Id. ¶ 58.
Plaintiff also engaged in email correspondence with
his sister, who advised Plaintiff to take a leave of
absence to get treatment for alcohol use. Id. ¶ 59. His
sister wrote:
[Y]ou can get FMLA for 12 weeks. You can’t
be fired!! If you do not go into treatment and
get caught drinking during work hours, or
Joe or Tom tell anyone about the incident
that happened, you can be fired immediately.
If you seek treatment before they find out
and go under FMLA, they can’t do anything
to you . . .

Id.
Plaintiff, however, continued to consume alcohol
while on the job. Plaintiff and his subordinates testified that in the first few months of 2015, Plaintiff
drank during the work day and frequently appeared
intoxicated, and Plaintiff testified that he drank
during the work day on more than one occasion. Id.
¶ 84. Members of Plaintiff’s team testified that Plaintiff was also increasingly difficult to reach and that
when he was reached, he had difficulty remembering
details and would often repeat things that had already
been discussed. Id. ¶ 85. One subordinate testified
that Plaintiff would call him drunk four out of the five
days of the work week and that Plaintiff “sound[ed]
drunk on the phone more often than not.” Id. ¶ 86.
Another subordinate testified that it was “painful to
have a conversation with [Plaintiff]” because he frequently slurred his words or brought up matters they

App.18a
had already discussed, and estimated that Plaintiff
was intoxicated on over 20 separate occasions on
which they spoke about work matters. Id. ¶ 87.
C. Plaintiff’s Attempts to Blackmail His Supervisor
Plaintiff also continued to display poor judgment
in multiple incidents from late 2014 to early 2015.1 In
late 2014, he brought his girlfriend to a work reception
and misrepresented to his supervisor, Lickovitch, that
he had received approval to do so. Id. ¶ 64. Also in late
2014, he requested permission from Lickovitch to skip
a dinner meeting with a customer in New York City so
that he could go home to New Jersey to take his
daughters out to dinner, but the next morning,
Lickovitch spotted Plaintiff and his girlfriend on the
elevator of a New York City hotel. Id. ¶ 65.
Plaintiff maintains that he did, in fact, get
permission to bring his girlfriend, id. ¶ 68, and that he
did go to New Jersey to take his daughters out to
dinner and returned to the New York City hotel for
the night. Pl. R.56 Stmt. ¶ 30-31, ECF No. 73. What is
not in dispute is Plaintiff’s reaction to being reprimanded by Lickovitch for these two incidents. Lickovitch spoke to Plaintiff about these incidents and on
December 1, 2014, he summarized that conversation
in an email to Plaintiff. Id. ¶ 67-68. Plaintiff was angry
1 Plaintiff claims he performed for Boston Scientific during the
seven months following his Final Corrective Action Plan “without
incident.” Pl. R.56 Stmt. ¶ 22. This claim is unsupported by the
record. When a party’s story “is blatantly contradicted by the
record, so that no reasonable jury could believe it, a court should
not adopt that version of the facts for purposes of ruling on a
motion for summary judgment.” Scott v. Harris, 550 U.S. 372,
380 (2007).

App.19a
that Lickovitch addressed these concerns in an email
because he believed that “emails at Boston Scientific
are permanent documents” and left Lickovitch a voicemail to that effect. Id. ¶ 68-69. The voicemail, which
Lickovitch described as “scathing,” contained “yelling”
and “screaming.” Id. ¶ 69. Plaintiff also “threaten[ed]”
Lickovitch by indicating that he had received “so
many complaints” from members of his team about
Lickovitch. Id. ¶ 69-70.
On December 4, 2014, Plaintiff sent Lickovitch an
email which purported to “lay out issues that [his]
team ha[d] expressed . . . ” including a claim that Lickovitch had made a female subordinate uncomfortable
and had “dragg[ed]” a male subordinate “around to
meet girls.” Id. ¶ 72. Plaintiff concluded his email by
writing: “Gary, [t]his e mail will stay in my files and I
would fully expect you and I will continue a strong
working relationship.” Id. Plaintiff did not report his
alleged concerns about Lickovitch to HR.2 Id. After
receiving the email, Lickovotch forwarded it to DeCoux.
Id. ¶ 75. Lynn Prust, Boston Scientific’s Director of
Employment and Employee Relations, conducted an
investigation of Plaintiff’s allegations and determined
that no policy had been violated. Id. ¶ 83.

2 Plaintiff contends, in his Amended Complaint, and in his
Counter Statement of Undisputed Facts, that he did report his
concerns about Lickovitch to HR. See Am. Compl. ¶ 6, ECF No.
19; Pl. R.56 Stmt. ¶ 50. This claim is unsupported by Plaintiff’s
own deposition testimony, Pl. R.56 Stmt., Ex. 1 at 210:11-211:1,
220:5-18, and by the plain text of his email, Def. R.56 Stmt., Ex.
15, ECF No. 48-25. See also Def. R.56 Stmt. ¶ 72 n.13.

App.20a
D. Plaintiff’s Worsening Behavior
In another incident in February 2015, Plaintiff
and a subordinate were scheduled to meet with a physician regarding a patient who had died during an
operation involving a Boston Scientific device. Id. 1 90.
Plaintiff’s subordinate called this meeting, which
occurred during normal business hours, “the most
significant meeting of my entire career.” Id. ¶ 91.
Plaintiff showed up for the meeting “visibly intoxicated.” Id. 1 92. He “slurred his speech, his eyes were
not fully open, and he smelled like he had been
drinking.” Id. Plaintiff would normally have taken the
lead during such a meeting, but Plaintiff’s subordinate
was forced to conduct the meeting instead. Id.
And finally, on February 27, 2015, Plaintiff was
scheduled to participate on an important quarterly
sales call scheduled for 5:30 pm. Id. ¶ 114-15. When
Plaintiff did not appear at the beginning of the call,
Lickovitch sent him a text message reminding him to
join. Id. ¶ 115. Plaintiff eventually joined the call but
several other individuals on the call observed that he
sounded intoxicated. Id. ¶ 116, 122. Conaway reported
that Plaintiff slurred his words, “could hardly [give a
sales update],” “wasn’t clear,” and “was just mumbling,
talking all over himself.” Id. ¶ 117.3 Lickovitch and
Conaway received text messages from other individuals on the call stating that Plaintiff appeared drunk.
Id. ¶ 116-17.

3 Plaintiff claims he was not drunk but rather “extremely excited”
during the February 27, 2015 call. Pl. R.56 Stmt. ¶ 99-100. This
claim is unsupported by the record.

App.21a
E. Plaintiff’s Arrest and FMLA Leave
On Thursday, March 12, 2015, at approximately
2:18 pm on a work day, Plaintiff drove to his daughters’
school to pick them up and was arrested for driving
under the influence of alcohol (“DUI”) while in a school
zone and for reckless driving. Id. ¶ 125-26, 131. Plaintiff’s speech was reportedly “slurred” and “at times
slow and incoherent,” and he failed both a field
sobriety test and a breathalyzer test. Id. ¶ 127-28.
Plaintiff did not tell anyone at Boston Scientific about
the arrest, but sent an email to Lickovitch the following morning, on March 13, 2015, stating that he would
be taking FMLA leave and that he “need[ed] to go get
healthy.” Id. ¶ 132. Plaintiff told Camille Chang Gilmore, Boston Scientific’s Vice President of HR, that
he had a “drinking problem” or that he was an
“alcoholic.” Id. ¶ 133. Plaintiff also told his subordinates that he would be taking leave for treatment for
alcoholism or because he had a drinking problem. Id.
¶ 135. Plaintiff then checked into, and completed, a
30-day inpatient treatment program in California. Id.
¶ 138.
While Plaintiff was on leave, Prust continued to
investigate outstanding allegations against Plaintiff,
including allegations relating to the February 27,
2015 sales call. Id. ¶ 15, 144. Ultimately, Prust concluded that Plaintiff was under the influence of
alcohol during that call. Id. ¶ 122.
On April 13, 2015, the day before Plaintiff
returned to work, Prust spoke to Plaintiff over the
phone. Id. ¶ 145. During this call, Plaintiff brought up
a new concern: that Lickovitch had made disparaging
comments about Plaintiff to Plaintiff’s subordinates
during Plaintiff’s leave from work. Id. ¶ 145. Plaintiff

App.22a
claimed he relayed these concerns to Kevin Ballinger,
the division president of Plaintiff’s division at Boston
Scientific, and that Ballinger assured Plaintiff he
would “take care of it.” Id. ¶ 145.4 Plaintiff also
threatened to sue Boston Scientific if Lickovitch did
not get fired and made a series of allegations that Conaway had engaged in inappropriate behavior. Id.
¶ 146. A subsequent investigation of Lickovich’s comments determined that no policy had been violated. Id.
¶ 150.
F. Plaintiff’s Termination
On April 14, 2015, Plaintiff returned to work. Id.
¶ 145. That day, Prust spoke with Ballinger, who
denied having spoken with Plaintiff. Id. ¶ 149. Ballinger
indicated that Plaintiff’s claim that the two had
spoken made Plaintiff seem “not trustworthy.” Id.
¶ 149. Also on that day, DeCoux scheduled a conference call for Friday, April 17, 2015, with Conaway,
Lickovitch, Gilmore, Prust, and in-house counsel to
discuss the outcome of Prust’s investigation and Plaintiff’s employment. Id. ¶ 151. Boston Scientific also
scheduled an in-person meeting between Plaintiff,
Conaway, and Gilmore to take place on Monday, April
20, 2015 in New York City. Id. At the time this
meeting was scheduled, Boston Scientific officials
“knew it was likely to include either a serious discussion about Plaintiff’s behavior or termination of Plaintiff’s employment.” Id. ¶ 151.

4 In his deposition, Plaintiff claimed that he did not tell Prust that
he spoke with Ballinger, but the record does not support this
contention. Id. ¶ 147-48.

App.23a
On Thursday, April 16, 2016, out of concern over
how Plaintiff might react during the April 20, 2015
meeting, DeCoux arranged for security to be present.
Id. ¶ 152. Boston Scientific’s security team also ran a
criminal background check on Plaintiff in preparation
for the meeting. Id. This check revealed Plaintiff’s
March 12, 2015 DUI arrest. Id. Upon learning about
Plaintiff’s DUI, Prust called Plaintiff and asked him
what he had been doing on March 12, 2015. Id. ¶ 154.
Plaintiff first told Prust that he had been on a plane
that day, but then claimed that he could not remember
what he had been doing. Id. When Prust continued
questioning him, Plaintiff admitted that he had received
a DUI that day. Id. ¶ 155. Prust conveyed this information to Ballinger, who conveyed the information to
Gilmore. Id. ¶ 156.
The following day, on April 17, 2015, Conaway,
Lickovitch, Gilmore, Prust, DeCoux, and Boston Scientific’s in-house counsel conducted their scheduled
conference call to discuss Plaintiff’s employment.
Id. ¶ 157. After discussing “Plaintiff’s historical
performance, ongoing behavior, the fact that he had
falsely stated he had spoken to Ballinger, his DUI on
March 12, 2015 at his children’s school during work
hours, his initial denial that anything extraordinary
happened on March 12, and his continued poor behavior
and judgment,” the parties collectively decided to
terminate Plaintiff’s employment. Id. ¶ 157-58.
The parties prepared a list of “talking points” that
laid out the reasons for Plaintiff’s termination: (1)
Plaintiff’s Written Corrective Action; (2) Plaintiff’s
Final Corrective Action and his commitment to not
drink alcohol at any future meetings and to behave
professionally at all times; (3) Plaintiff’s slurring his

App.24a
words and sounding intoxicated during the February
27, 2015 conference call; (4) Plaintiff’s consuming alcohol during the work day on March 12, 2015, the day of
his DUI; and (5) Plaintiff’s false claim to Prust that he
had spoken with Ballinger. Id. ¶ 159.
Also on April 17, 2015, Plaintiff was notified
about the in-person meeting scheduled for that Monday
and began to realize that he was about to be terminated.
Id. ¶ 160-61. In an email exchange with his ex-wife
between April 16-17, 2015, Plaintiff stated that he was
“about to lose [his] job” and said wrote “[t]hey’re
coming to fire me Monday. . . . ” Id. ¶ 161. At 9:10 pm
the night before the meeting, Plaintiff sent an email
to DeCoux in which he attempted to avoid the meeting
by writing “I feel stress and am going out for help of
FLMA [sic] leave tomorrow.” Id. ¶ 162. The morning
of the meeting, Plaintiff sent a series of text messages
to Conaway threatening to not show up to the meeting
and telling Conaway that he needed “to leave on
FMLA again.” Id. ¶ 163. Plaintiff also sent an email to
his girlfriend stating that he was “[h]eaded to get
fired.” Id. ¶ 163. Plaintiff ultimately attended the
meeting and was informed that his employment was
terminated for the reasons stated in the prepared
talking points. Id. ¶ 165.
G. Plaintiff’s Claims
Plaintiff filed this action against Boston Scientific,
Lickovitch, Conaway, and John Does 1-30 in state
court on August 31, 2015. ECF No. 1-1. On October 15,
2015, Defendants removed this action to federal court.
Id. Plaintiff brings six claims for: (1) discriminatory
discharge based on disability in violation of NJLAD;
(2) retaliation in violation of FMLA; (3) retaliation in

App.25a
violation of NJLAD; (4) retaliation in violation of
CEPA; and (5) aiding and abetting disability discrimination by Lickovitch and Conaway in violation of
NJLAD; and (6) discrimination and retaliation by
John Does 1-30.
II.

Legal Standard

Summary judgment is appropriate if the pleadings, depositions, answers to interrogatories, admissions, and affidavits show that “there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a); see also Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 247-248 (1986). “Summary judgment may be
granted only if there exists no genuine issue of
material fact that would permit a reasonable jury to
find for the nonmoving party.” Miller v. Ind. Hosp.,
843 F.2d 139, 143 (3d Cir. 1988).
When the Court considers a motion for summary
judgment, “all facts and inferences are construed in
the light most favorable to the non-moving party.”
Boyle v. Cty. of Allegheny Pennsylvania, 139 F.3d 386,
393 (3d Cir. 1998). However, “a plaintiff cannot resist
a properly supported motion for summary judgment
merely by restating the allegations of his complaint,
but must point to concrete evidence in the record that
supports each and every essential element of his case.”
Orsatti v. New Jersey State Police, 71 F.3d 480, 484
(3d Cir. 1995).

App.26a
III. Analysis
A. Plaintiff’s Disability Discrimination Claim under
NJLAD
Plaintiff argues that Defendants terminated his
employment for a discriminatory reason—because he
is an alcoholic—and that in doing so, Defendants
violated NJLAD. Defendants maintain they terminated
Plaintiff’s employment due to his poor judgment and
unprofessional behavior brought on, in part, by his
alcohol use. The Court agrees with Defendants.
An NJLAD claim is analyzed using the burdenshifting framework established in McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 802 (1973). Sarnowski v.
Air Brooke Limousine, Inc., 510 F.3d 398, 403 (3d Cir.
2007); Zive v. Stanley Roberts, Inc., 182 N.J. 436, 44748 (2005). To establish a prima facie claim for disability discrimination under NJLAD, Plaintiff must
show: (1) he belongs to a protected class; (2) he held a
position for which he was objectively qualified; (3) was
terminated from that position; and (4) the employer
sought to, or did, fill the position with a similarlyqualified person. Viscik v. Fowler Equipment Co., 173
N.J. 1, 14 (2002).
Plaintiff has demonstrated that he meets the
first, third, and fourth prongs of the prima facie test.
He is an alcoholic, Pl. R.56 Stmt. ¶ 5, he was terminated
from his position as Regional Manager, id. ¶ 26, and
he was replaced by a similarly-qualified person. Def.
R.56 Stmt. ¶ 166. Plaintiff has also demonstrated that
he meets the “objectively qualified” prong, which requires him to show that he was “meeting the employer’s
legitimate or reasonable expectations,” Viscik, 173
N.J. at 21, and that he was “actually performing [his]

App.27a
job prior to the termination.” Zive, 182 N.J at 454.
Plaintiff has demonstrated that he received numerous
sales awards and repeatedly exceeded his sales quotas,
so he has satisfied this prong as well.5 Pl. R.56 Stmt.
¶ 3.
Once the plaintiff has pled a prima facie case of
discrimination in violation of NJLAD, the burden
shifts to the defendant to “articulate a legitimate, nondiscriminatory reason for the adverse employment action.” Viscik, 173 N.J. at 14. After the defendant does
so, the burden shifts back to the plaintiff to show that
“the employer’s proffered reason was merely a pretext
for discrimination.” Id.
The Court is satisfied that Defendants have
articulated a legitimate, non-discriminatory reason for
terminating Plaintiff’s employment. The record contains ample evidence of Plaintiff’s indiscretions in the
course of his performance as Regional Manager.
Defendants have demonstrated that Plaintiff drank
excessively and behaved inappropriately at multiple
business meetings and conferences, Def. R.56 Stmt.
¶¶ 28, 29, 36, 46-50, that he received two written corrective actions and promised not to drink during work
5 Defendants contend that Plaintiff has not met the second prong
of his prima facie test because testimony from his subordinates
and managers demonstrate that he was frequently drunk during
the work day, that he was unable to participate sales calls, and
that he was ineffective in supporting his team of sales representatives. Def. Brief at 20-21, ECF No. 48-1. But when determining
the sufficiency of Plaintiff’s prima facie case, “only the plaintiff’s
evidence should be considered.” Zive, 182 N.J. at 455. “[P]erformance markers like poor evaluations” should not be considered
until the Court reaches the second and third stages of the burden
shifting framework. Id.

App.28a
or to behave inappropriately in the future, id. ¶¶ 36,
43, 53-55, that he continued to drink during the work
day and was frequently difficult to reach, id. ¶¶ 84-87,
that he was drunk during an important meeting with
a physician, id. ¶¶ 90-92, that he was drunk during an
important strategy conference call, id. ¶¶ 114-17, that
he was arrested for DUI in the middle of a work day,
id. ¶¶ 125-26, 131, and that he lied to Prust during
Boston Scientific’s investigation into his conduct, id.
¶ 145. See Casseus v. Elizabeth Gen. Med. Ctr., 287
N.J. Super. 396, 405 (N.J. Super. Ct. App. Div. 1996)
(“it should require no citation to state that an employee’s poor performance in discharging his duties is a
legitimate nondiscriminatory reason to fire or demote
the employee.”).
Finally, Plaintiff has not met his burden of demonstrating that Defendant’s proffered reasons are pretext for discrimination against Plaintiff on the basis of
disability. To establish pretext, Plaintiff must submit
evidence that “either casts sufficient doubt upon the
employer’s proffered legitimate reason so that a
factfinder could reasonably conclude it was fabricated,
or that allows the factfinder to infer that discrimination was more likely than not the motivating or determinative cause of the termination decision.” Svarnas
v. AT&T Communications, 326 N.J. Super. 59, 82
(N.J. Sup. Ct. App. Div. 1999). At issue at the pretext
stage “is whether discriminatory animus motivated
the employer.” Fuentes v. Perskie, 32 F.3d 759, 765
(3d Cir. 1994).
First, Plaintiff argues that Boston Scientific’s
reasons for terminating his employment are pretext
for discrimination on the theory that Boston Scientific
took no issue with his alcohol use until he disclosed

App.29a
his status as an alcoholic and took his FMLA leave in
March of 2015. Plaintiff states: “the evidence is
undisputed that prior to plaintiff’s acknowledgement
of his alcoholism, request for FMLA leave and seeking
30 days in-patient alcoholism rehabilitation, plaintiff
had not been subjected to any investigation regarding
his alcohol use.” Pl. Opp. Brief at 12, ECF No. 72. This
statement is simply untrue, and flies in the face of the
two corrective actions Plaintiff received in February
and June 2014.6 Plaintiff writes of himself, “[h]e was
not reported for any alleged violation of the Corrective
Action Plans or Alcohol Use policy before he admitted
his alcoholism and requested FMLA leave to rehabilitate
from the disability.” Id. Plaintiff appears to be claiming
that the absence of reported violations of his corrective
action plans suggests that his workplace behavior was
adequate, without acknowledging the fact that the
corrective action plans themselves suggest otherwise.
Next, Plaintiff suggests that he was not actually
drunk during the February 27, 2015 conference call.
This contention is contradicted by the record, which
includes testimony from five individuals, including
supervisors and subordinates, who testified that Plaintiff sounded drunk on the call. Def. R.56 Stmt. ¶ 116.
But even if all five individuals were incorrect, that
would merely demonstrate that Plaintiff’s colleagues
6 Plaintiff claims that his corrective actions had “expired” by the
time he was terminated. Pl. Opp. Brief at 18. This is one of Plaintiff’s many claims that is directly contradicted by evidence in the
record. His Final Corrective Action explicitly states that he “committed . . . not to drink during any future BSC meetings and . . .
would behave professionally at all times,” and indicated that he
would be subject to period reviews through June 2015. Def. R.56
Stmt. ¶¶ 54-55 (emphasis added).

App.30a
inaccurately assessed his job performance, not that
they were motivated by a discriminatory reason in
doing so. See Chambers v. Heidelberg USA, Inc., 2006
WL 1281308 at *12. (D.N.J. May 5, 2006) (“it is insufficient for [plaintiff] to show merely that the employer’s
decision was wrong or mistaken because the relevant
issue is ‘whether discriminatory animus motivated
the defendant, not whether the defendant is wise,
shrewd, prudent, or competent.’”) (quoting Fuentes,
32 F.3d at 763).
Third, Plaintiff argues that Boston Scientific misrepresented the time at which it made the decision to
terminate his employment: specifically, that it made
the decision before the April 17, 2015 conference call.
Pl. Opp. Brief at 16. He then makes a gigantic leap,
claiming this means “a reasonable jury can easily conclude that every single reason set forth [for Plaintiff’s
termination] is a complete post hac [sic] fabrication. . . . ” Id. Plaintiff’s contention mischaracterizes the
record. Defendants have demonstrated that the April
20, 2017 meeting was scheduled on April 14, 2015 to
discuss seriously “Plaintiff’s behavior” or possible
“termination of Plaintiff’s employment.” Def. R.56
Stmt. ¶ 151. Defendants have demonstrated that
Plaintiff was “trending toward termination” by April
16, 2015. Id. ¶ 156; see also id., Ex. 11, ECF No. 48-21
(Plaintiff’s Final Corrective Action issued on June 13,
2015, stated: “modifying your behavior is critical for
your continued employment with BSC” and “[f]ailure
to demonstrate and sustain an acceptable level of
performance may result in . . . termination of employment, at any time.”). They have demonstrated that a
final decision regarding Plaintiff’s continued employment had not been made as of April 16, 2015 but that

App.31a
the discovery of Plaintiff’s lie to Prust and of his work
day DUI helped sway senior management towards
deciding to terminate Plaintiff’s employment. Def. R.56
Stmt. ¶ 156. And Defendants have demonstrated that
the ultimate decision to terminate Plaintiff’s employment was made on April 17, 2015. Id. ¶ 158. Furthermore, Plaintiff cannot point to facts to suggest that the
ultimate decision to terminate was made prior to the
April 17 conference call.
Even if Plaintiff were correct in asserting that the
decision to terminate him was made before the April
17 call, that would not support a finding of pretext.
Plaintiff’s attempt to call into question the timing of
Boston Scientific’s decision does not cast doubt on the
validity of its reasons for making the decision. There
are plenty of nondiscriminatory reasons for Boston
Scientific to have terminated Plaintiff’s employment
prior to April 17, 2015. By the time Plaintiff took
FMLA leave in March 2015, he had already been subject to two disciplinary actions and Boston Scientific
was in the process of investigating allegations of
Plaintiff’s further inappropriate behavior on the February 27, 2017 call. Id. ¶¶ 36, 54, 119-120.
Ultimately, Plaintiff has not demonstrated that
Boston Scientific’s proffered reasons for termination
are false, or that the decision was motivated by
animus. He has failed to demonstrate that Boston
Scientific’s reasons were terminating his employment
are pretext for discrimination. As Plaintiff has failed
to raise a genuine issue of material fact as to pretext,
his discriminatory discharge claim must be dismissed.

App.32a
B. Plaintiff’s FMLA Disability Claim
Next, Plaintiff argues that Boston Scientific
terminated his employment in retaliation for his request
to take FMLA leave, in violation of FMLA. Defendants
contend that Plaintiff’s termination was unrelated to
his request to take leave. The Court agrees with
Defendants.
To establish a prima facie case of FMLA retaliation, Plaintiff must show that (1) he engaged in protected activity by requesting FMLA leave; (2) he
suffered an adverse employment decision; and (3) the
adverse decision was casually related to his request
for leave. Capps v. Mondelez Global, LLC, 847 F.3d
114, 152 n.6 (3d Cir 2017). FMLA retaliation claims
are also analyzed under the McDonnell Douglass
burden-shifting framework. Id. Plaintiff has demonstrated that he requested FMLA leave and that he
was terminated, but he cannot establish that his
termination was causally related to his request for
leave.
Temporal proximity between the FMLA request
and the adverse employment decision may suggest a
causal connection. “To demonstrate a causal connection, a plaintiff generally must show ‘either (1) an
unusually suggestive temporal proximity between the
protected activity and the allegedly retaliatory action,
or (2) a pattern of antagonism coupled with timing to
establish a causal link.’” Budhun v. Reading Hosp. &
Med. Ctr., 765 F.3d 245, 258 (3d Cir. 2014) (quoting
Lauren W. ex rel. Jean W. v. DeFlaminis, 480 F.3d
259, 267 (3d Cir. 2007)); see also Marra v. Philadelphia
Hous. Auth., 497 F.3d 286, 302 (3d Cir. 2007) (“[i]n
certain narrow circumstances, an ‘unusually suggestive’
proximity in time between the protected activity and

App.33a
the adverse action may be sufficient, on its own, to
establish the requisite causal connection.”). However,
“[a]n employee cannot easily establish a causal connection between his protected activity and the alleged
retaliation when he has received significant negative
evaluations before engaging in the protected activity.”
Ross v. Gilhuly, 755 F.3d 185, 194 (3d Cir. 2014).
Boston Scientific made the decision to terminate
Plaintiff’s employment on April 17, 2015, over a
month after Plaintiff requested FMLA leave on March
13 of that year. It is true that the decision came only
three days after his return from FMLA leave, but it is
also true that the decision came 14 months after
Plaintiff’s first Written Corrective Action, ten months
after Plaintiff’s Final Corrective Action—which warned
Plaintiff that future instances of drinking while on the
job “may result in . . . termination of employment,” Def.
R.56 Stmt, Ex. 11—and very soon after Prust concluded that Plaintiff was drunk during the February
27, 2015 call. It is not clear that this is “certain narrow
circumstance[]” in which the temporal proximity is
“unusually suggestive.” Marra, 497 F.3d at 302.
Plaintiff alleges no proof of causation other than
timing. He suggests that Defendants displayed a
“pattern of antagonism” against him, but merely
states in support the false claim that “Plaintiff had not
been investigated for an alcohol related issue” prior to
“admitting alcoholism.” Pl. Opp. Brief at 22. As such,
Plaintiff has failed to plead a prima facie case of
FMLA retaliation. And even if he had, he has not
alleged any facts, other than timing, to overcome
Defendants’ legitimate, nondiscriminatory reasons for
terminating his employment. Pl. Opp. Brief at 23.

App.34a
C. Plaintiff’s Retaliation Claim
Plaintiff next contends that he engaged in protected activity when he reported in a December 4,
2014 email an allegation that Lickovitch sexually
harassed a female subordinate, and that Boston
Scientific retaliated against him in violation of NJLAD
and CEPA. Am. Compl. ¶¶ 36-41.7 Defendants argue
that Plaintiff cannot avail himself of CEPA because
his report was not made in good faith. The Court
agrees with Defendants.
To establish a prima facie case of retaliation in
violation of CEPA, Plaintiff must show that (1) he
reasonably believed the conduct he reported violated
a law, rule, regulation, or clear mandate of public
policy; (2) he performed a “whistle-blowing” activity
described in N.J.S.A. § 34:19–3; (3) an adverse employment action was taken against him; and (4) a
causal connection exists between the whistle-blowing
activity and the adverse employment action. Winters
v. North Hudson Regional Fire and Rescue, 212 N.J.
67, 89 (N.J. 2012) (citation omitted).
Plaintiff’s claim fails because he cannot prove
prongs two and four of his prima facie case. First,
Plaintiff cannot point to any facts demonstrating that
he performed “whistle-blowing” activity. He claims
7 Because Plaintiff’s NJLAD and CEPA retaliation claims are
based on the same facts, the NJLAD retaliation claim is deemed
waived. N.J.S.A. § 34:19-8 (commencing a CEPA action “shall be
deemed a waiver of the rights and remedies available under any
other . . . State law”); Ehling v. Monmouth-Ocean Hosp. Serv.
Corp., 961 F. Supp. 2d 659, 672 (D.N.J. 2013) (“retaliation claims
under the LAD necessarily fall within the CEPA waiver provision”) (citation omitted).

App.35a
that he reported an allegation of sexual harassment
“to his supervisor”—but the allegation in question concerned that same supervisor. That is, he seeks CEPA
protection for reporting allegations against Lickovitch
to Lickovitch himself, rather than to Boston Scientific’s
HR department, as he was instructed to do per its
Harassment Policy, and as he knew to do and had
done when he made similar allegations in the past.
Def. R.56 Stmt. ¶¶ 71, 74. And Plaintiff never formally
reported his allegation. He claims that he did in his
Amended Complaint, ¶ 6, but testified in his deposition that “Gary [Lickovitch],” not he “elevated it” to
HR. Pl. R.56 Stmt., Ex. 1 at 210:23. He explicitly disclaimed any intention to make a formal report when
he wrote: “Gary, [t]his email will stay in my files and
I would fully expect you and I will continue a strong
working relationship.” Id. ¶ 72.
Moreover, Plaintiff’s “whistle-blowing” activity
was not made in good faith. See Cottrell v. Family
Practice Assocs., No. 15-2267, 2016 WL 3029921, at *3
(D.N.J. May 26, 2016) (finding that Plaintiffs could
not claim to have engaged in protected activity under
NJLAD when they could not demonstrate “a good faith
basis” for filing a citizen’s complaint); Carmona v.
Reports Int’l Hotel, Inc. 189 N.J. 354, 373 (N.J. 2007)
(“an unreasonable, frivolous, bad-faith, or unfounded
complaint cannot satisfy the statutory prerequisite
necessary to establish liability for retaliation under
the LAD.”). Plaintiff told his subordinates that he
planned to send the email to Lickovitch months before
he actually sent it on December 4, three days after
Lickovitch reprimanded Plaintiff for unprofessional

App.36a
behavior, and soon after Plaintiff’s “scathing,” “threatening” voicemail to Lickovitch. Def. R.56 Stmt. ¶ 6870, 73 n.14.
CEPA aims to protect employees who suffer retaliation after reporting violations in the workplace. But
it is not intended to be used to “assuage egos or settle
internal disputes at the workplace.” Capanna v.
Tribecca Lending Corp, No. 06-5314, 2009 WL 900156
at *8 (D.N.J. Mar. 31, 2009); Carmona, 189 N.J. at 373
(cautioning that NJLAD is not intended to be used “as
a sword . . . wielded by a savvy employee against his
employer.”). Here, Plaintiff cannot demonstrate that
he engaged in protected activity under CEPA. He
cannot show that he even engaged in whistle-blowing
activity, let alone that the report was in good faith.
And even if he could, for the reasons indicated in Part
III.A, supra, he has not demonstrated that his termination was causally related to his December 4 email.
Accordingly, Plaintiff’s CEPA claim fails.
D. Plaintiff’s Aiding and Abetting Claims
Plaintiff alleges Conaway and Lickovitch aided
and abetted Boston Scientific in disability discrimination in violation of NJLAD. Am. Compl. ¶ 43-44.
NJLAD provides for claims against individual employees who “aid, abet, incite, compel or coerce” any acts
forbidden under the statute. N.J.S.A. § 10:5-12(e); see
Tarr v. Ciasulli, 181 N.J.70, 83 (2004). To establish a
claim for aiding and abetting liability under NJLAD,
a plaintiff must show that: “‘(1) the party whom the
defendant aids must perform a wrongful act that
causes an injury; (2) the defendant must be generally
aware of his role as part of an overall illegal or tortious
activity at the time that he provides the assistance;

App.37a
[and] (3) the defendant must knowingly and substantially assist the principal violation.’” Tarr, 181 N.J. 70,
84 (quoting Hurley v. Atlantic City Police Dep’t, 174
F.3d 95, 129 (3d Cir. 1999)).
Here, Plaintiff’s claims against Conaway and Lickovitch fail because there is no underlying wrongful act
which they aided. See Guarneri v. Buckeye Pipe Line
Servs. Co., 205 F. Supp. 3d 606, 619 (D.N.J. 2016)
(dismissing aiding and abetting claims against individual defendants when underlying NJLAD claim was
dismissed).
E. Plaintiff’s John Doe Claims
Plaintiff alleges that unidentified John Does 1-30
discriminated and retaliated against him. Am. Compl.
¶ 46-49. These defendants have not been identified
and there is no indication that they were ever served
with the Amended Complaint. Accordingly, Plaintiff’s
claims against John Does 1-30 are dismissed. See
Guarneri, 205 F. Supp. 3d at 619 (granting summary
judgment on John Doe claims when plaintiff failed to
identify or serve John Does within the time required
by Fed. R. Civ. P. 4(m) or show good cause for failing
to effectuate service).
IV. Conclusion
For the reasons set forth herein, Defendants’ motion for summary judgment is GRANTED. An appropriate Order accompanies this Opinion.
/s/ Madeline Cox Arleo
United States District Judge
Dated: November 30, 2017

App.38a
ORDER OF THE
DISTRICT COURT OF NEW JERSEY
(NOVEMBER 30, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
MICHAEL SIMONS,

Plaintiff,
v.
BOSTON SCIENTIFIC, ET AL.,

Defendants.

________________________
Civil Action No. 15-7519

Before: Hon. Madeline COX ARLEO,
United States District Judge.
THIS MATTER comes before the Court on
Defendants Boston Scientific Corporation (“Boston
Scientific”), Gary Lickovitch (“Lickovitch”), and Samuel
Conaway’s (“Conaway”) (together, “Defendants”) motion
for summary judgment, ECF No. 48;
and for the reasons set forth in the Court’s
accompanying Opinion;
IT IS on this 30th day of November, 2017,

App.39a
ORDERED that Defendants’ motion for summary
judgment, ECF No. 48, is GRANTED; and it is further
ORDERED that this case is closed.

/s/ Madeline Cox Arleo
United States District Judge

App.40a
STATUTORY PROVISIONS
29 U.S.C. § 2601—Findings and Purposes
(a) Findings
Congress finds that—
(1) The number of single-parent households and
two-parent households in which the single parent or
both parents work is increasing significantly;
(2) It is important for the development of children
and the family unit that fathers and mothers be able
to participate in early childrearing and the care of
family members who have serious health conditions;
(3) The lack of employment policies to accommodate working parents can force individuals to
choose between job security and parenting;
(4) There is inadequate job security for employees
who have serious health conditions that prevent them
from working for temporary periods;
(5) Due to the nature of the roles of men and
women in our society, the primary responsibility for
family caretaking often falls on women, and such
responsibility affects the working lives of women more
than it affects the working lives of men; and
(6) Employment standards that apply to one
gender only have serious potential for encouraging
employers to discriminate against employees and applicants for employment who are of that gender.
(b) Purposes
It is the purpose of this Act—

App.41a
(1) To balance the demands of the workplace with
the needs of families, to promote the stability and
economic security of families, and to promote national
interests in preserving family integrity;
(2) To entitle employees to take reasonable leave
for medical reasons, for the birth or adoption of a child,
and for the care of a child, spouse, or parent who has
a serious health condition;
(3) To accomplish the purposes described in paragraphs (1) and (2) in a manner that accommodates
the legitimate interests of employers;
(4) To accomplish the purposes described in
paragraphs (1) and (2) in a manner that, consistent
with the Equal Protection Clause of the Fourteenth
Amendment, minimizes the potential for employment
discrimination on the basis of sex by ensuring generally that leave is available for eligible medical reasons
(including maternity-related disability) and for compelling family reasons, on a gender-neutral basis; and
(5) To promote the goal of equal employment
opportunity for women and men, pursuant to such
clause.
29 U.S.C. § 2612—Leave requirement
(a) In General
(1) Entitlement to Leave
Subject to section 2613 of this title, an eligible
employee shall be entitled to a total of 12 workweeks of leave during any 12-month period for
one or more of the following:

App.42a
(A) Because of the birth of a son or daughter of
the employee and in order to care for such
son or daughter.
(B) Because of the placement of a son or daughter
with the employee for adoption or foster care.
(C) In order to care for the spouse, or a son,
daughter, or parent, of the employee, if such
spouse, son, daughter, or parent has a serious
health condition.
(D) Because of a serious health condition that
makes the employee unable to perform the
functions of the position of such employee.
(E) Because of any qualifying exigency (as the
Secretary shall, by regulation, determine)
arising out of the fact that the spouse, or a
son, daughter, or parent of the employee is
on covered active duty (or has been notified
of an impending call or order to covered
active duty) in the Armed Forces.
(2) Expiration of Entitlement
The entitlement to leave under subparagraphs (A)
and (B) of paragraph (1) for a birth or placement
of a son or daughter shall expire at the end of the
12-month period beginning on the date of such
birth or placement.
(3) Service member Family Leave
Subject to section 2613 of this title, an eligible
employee who is the spouse, son, daughter, parent,
or next of kin of a covered service member shall
be entitled to a total of 26 workweeks of leave
during a 12-month period to care for the service

App.43a
member. The leave described in this paragraph
shall only be available during a single 12-month
period.
(4) Combined Leave Total
During the single 12-month period described in
paragraph (3), an eligible employee shall be entitled to a combined total of 26 workweeks of leave
under paragraphs (1) and (3). Nothing in this
paragraph shall be construed to limit the availability of leave under paragraph (1) during any
other 12-month period.
(5) Calculation of Leave for Airline Flight Crews
The Secretary may provide, by regulation, a method
for calculating the leave described in paragraph
(1) with respect to employees described in section
2611(2)(D) of this title.
(b) Leave Taken Intermittently or on Reduced Leave
Schedule
(1) In General
Leave under subparagraph (A) or (B) of subsection (a)(1) shall not be taken by an employee intermittently or on a reduced leave schedule unless the
employee and the employer of the employee agree
otherwise. Subject to paragraph (2), subsection
(e)(2), and subsection (b)(5) or (f) (as appropriate)
of section 2613 of this title, leave under subparagraph (C) or (D) of subsection (a)(1) or under
subsection (a)(3) may be taken intermittently or
on a reduced leave schedule when medically necessary. Subject to subsection (e)(3) and section 2613
(f) of this title, leave under subsection (a)(1)(E)

App.44a
may be taken intermittently or on a reduced leave
schedule. The taking of leave intermittently or on
a reduced leave schedule pursuant to this paragraph shall not result in a reduction in the total
amount of leave to which the employee is entitled
under subsection (a) beyond the amount of leave
actually taken.
(2) Alternative Position
If an employee requests intermittent leave, or leave
on a reduced leave schedule, under subparagraph
(C) or (D) of subsection (a)(1) or under subsection
(a)(3), that is foreseeable based on planned medical treatment, the employer may require such
employee to transfer temporarily to an available
alternative position offered by the employer for
which the employee is qualified and that(A) Has equivalent pay and benefits; and
(B) Better accommodates recurring periods of
leave than the regular employment position
of the employee.
(c) Unpaid Leave Permitted
Except as provided in subsection (d), leave granted
under subsection (a) may consist of unpaid leave.
Where an employee is otherwise exempt under regulations issued by the Secretary pursuant to section
213(a)(1) of this title, the compliance of an employer
with this subchapter by providing unpaid leave shall
not affect the exempt status of the employee under
such section.

App.45a
(d) Relationship to Paid Leave
(1) Unpaid Leave
If an employer provides paid leave for fewer than
12 workweeks (or 26 workweeks in the case of
leave provided under subsection (a)(3)), the additional weeks of leave necessary to attain the 12
workweeks (or 26 workweeks, as appropriate) of
leave required under this subchapter may be
provided without compensation.
(2) Substitution of Paid Leave
(A) In General
An eligible employee may elect, or an
employer may require the employee, to substitute any of the accrued paid vacation
leave, personal leave, or family leave of the
employee for leave provided under subparagraph (A), (B), (C), or (E) of subsection
(a)(1) for any part of the 12-week period of
such leave under such subsection.
(B) Serious Health Condition
An eligible employee may elect, or an
employer may require the employee, to substitute any of the accrued paid vacation
leave, personal leave, or medical or sick leave
of the employee for leave provided under subparagraph (C) or (D) of subsection (a)(1) for
any part of the 12-week period of such leave
under such subsection, except that nothing
in this subchapter shall require an employer
to provide paid sick leave or paid medical

App.46a
leave in any situation in which such
employer would not normally provide any
such paid leave. An eligible employee may
elect, or an employer may require the
employee, to substitute any of the accrued
paid vacation leave, personal leave, family
leave, or medical or sick leave of the employee
for leave provided under subsection (a)(3) for
any part of the 26-week period of such leave
under such subsection, except that nothing
in this subchapter requires an employer to
provide paid sick leave or paid medical leave
in any situation in which the employer would
not normally provide any such paid leave.
(e) Foreseeable Leave
(1) Requirement of Notice
In any case in which the necessity for leave under
subparagraph (A) or (B) of subsection (a)(1) is
foreseeable based on an expected birth or placement, the employee shall provide the employer
with not less than 30 days’ notice, before the date
the leave is to begin, of the employee’s intention
to take leave under such subparagraph, except
that if the date of the birth or placement requires
leave to begin in less than 30 days, the employee
shall provide such notice as is practicable.
(2) Duties of Employee
In any case in which the necessity for leave under
subparagraph (C) or (D) of subsection (a)(1) or
under subsection (a)(3) is foreseeable based on
planned medical treatment, the employee-

App.47a
(A) Shall make a reasonable effort to schedule
the treatment so as not to disrupt unduly the
operations of the employer, subject to the
approval of the health care provider of the
employee or the health care provider of the
son, daughter, spouse, parent, or covered
service member of the employee, as appropriate; and
(B) Shall provide the employer with not less
than 30 days’ notice, before the date the
leave is to begin, of the employee’s intention
to take leave under such subparagraph,
except that if the date of the treatment
requires leave to begin in less than 30 days,
the employee shall provide such notice as is
practicable.
(3) Notice for Leave Due to Covered Active Duty of
Family Member
In any case in which the necessity for leave under
subsection (a)(1)(E) is foreseeable, whether because
the spouse, or a son, daughter, or parent, of the
employee is on covered active duty, or because of
notification of an impending call or order to
covered active duty, the employee shall provide
such notice to the employer as is reasonable and
practicable.
(f) Spouses Employed By Same Employer
(1) In General
In any case in which a husband and wife entitled
to leave under subsection (a) are employed by the

App.48a
same employer, the aggregate number of workweeks of leave to which both may be entitled may
be limited to 12 workweeks during any 12-month
period, if such leave is taken(A) Under subparagraph (A) or (B) of subsection
(a)(1); or
(B) To care for a sick parent under subparagraph
(C) of such subsection.
(2) Service member Family Leave
(A) In General
The aggregate number of workweeks of leave
to which both that husband and wife may be
entitled under subsection (a) may be limited
to 26 workweeks during the single 12-month
period described in subsection (a)(3) if the
leave is(i)

Leave under subsection (a)(3); or

(ii) a combination of leave under subsection
(a)(3) and leave described in paragraph
(1).
(B) Both Limitations Applicable
If the leave taken by the husband and wife
includes leave described in paragraph (1),
the limitation in paragraph (1) shall apply to
the leave described in paragraph (1).

App.49a
29 U.S.C. § 2614
(a) Restoration to position
(1) In general
Except as provided in subsection (b), any eligible
employee who takes leave under section 2612 of
this title for the intended purpose of the leave
shall be entitled, on return from such leave—
(A) to be restored by the employer to the position
of employment held by the employee when
the leave commenced; or
(B) to be restored to an equivalent position with
equivalent employment benefits, pay, and
other terms and conditions of employment.
29 U.S.C. § 2615—Prohibited acts
(a) Interference with Rights
(1) Exercise of Rights
It shall be unlawful for any employer to interfere
with, restrain, or deny the exercise of or the
attempt to exercise, any right provided under this
subchapter.
(2) Discrimination
It shall be unlawful for any employer to discharge
or in any other manner discriminate against any
individual for opposing any practice made unlawful
by this subchapter.

App.50a
(b) Interference with Proceedings or Inquiries
It shall be unlawful for any person to discharge or
in any other manner discriminate against any individual because such individual(1) Has filed any charge, or has instituted or
caused to be instituted any proceeding, under
or related to this subchapter;
(2) Has given, or is about to give, any information in connection with any inquiry or
proceeding relating to any right provided
under this subchapter; or
(3) Has testified, or is about to testify, in any
inquiry or proceeding relating to any right
provided under this subchapter.

